   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




January 10, 2011

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Heritage Health and Housing, Inc.
               (A-02-10-02009)


The attached final report provides the results of our limited scope review of Heritage Health and
Housing, Inc. This review is part of an ongoing series of reviews performed by the Office of
Inspector General (OIG) to provide oversight of funds provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-02-10-02009 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
          REVIEW AT
    HERITAGE HEALTH AND
        HOUSING, INC.




                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-02-10-02009
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program. The HRSA health centers are community-based and
patient-directed organizations that serve populations with limited access to health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Heritage Health and Housing, Inc. (Heritage), is a non-profit agency that provides housing,
counseling, supportive, and healthcare services to residents located in the New York City area.

Heritage is funded primarily by patient service revenues and Federal and State grants. During
calendar year 2009, HRSA awarded Recovery Act funds to Heritage totaling $555,017. Of that
amount, $400,010 was allocated for the renovation of medical and dental suites, the purchase of
new medical and dental equipment, and an electronic medical records system. The remaining
$155,007 was allocated for increasing the number of patients served.

OBJECTIVE

Our objective was to assess Heritage’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, Heritage’s financial viability may be adversely impacted by its
financial condition in Fiscal Years 2006 through 2008. During this period, Heritage’s
expenditures exceeded operating revenues and current liabilities exceeded current assets.
Moreover, while Heritage is generally capable of managing and accounting for Federal funds and
operating a health center in accordance with Federal regulations, we noted issues related to
Heritage’s accounting system and to certain procedures, including cash management,
procurement, and whistleblower protection. Finally, Heritage does not maintain inventory
records or have written procedures for periodically performing a physical inventory.




                                                 i
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Heritage’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

HERITAGE HEALTH AND HOUSING, INC., COMMENTS

In written comments on our draft report, Heritage generally concurred with our findings and
described its completed and ongoing actions to address the deficiencies we identified. Regarding
our assessment of its financial viability, Heritage stated that its excess expenditures over
revenues for FYs 2006 through 2008 were covered by other revenues, resulting in positive cash
flows in each of those years; that its financial position improved significantly in FY 2009; and
that it expects further improvements in FY 2010 and beyond. However, Heritage acknowledged
that its current ratio for FY 2009 was .75, “still below the desirable ratio of 1:1.” In addition,
Heritage stated its accounting system software is designed to use cost centers to properly capture
funding sources and programs when tracking expenditures and revenues. Heritage’s comments
are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Heritage’s comments, we maintain our findings regarding its financial viability
and accounting system. For an organization to be considered fiscally sound, operating revenues
should consistently meet or exceed operating expenses. Further, for FYs 2006 through 2008,
Heritage’s audited financial statements indicated that it operated with negative cash flows. We
also maintain that, during our fieldwork, Heritage did not use its accounting software to
segregate the organization’s operating expenses between Federal and non-Federal programs.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              The Health Center Program ................................................................................... 1
              Heritage Health and Housing, Inc. ......................................................................... 1
              Requirements for Federal Grantees ....................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 2

FINDINGS AND RECOMMENDATION................................................................................. 3

          FINANCIAL VIABILITY ................................................................................................. 3

          ACCOUNTING SYSTEM ................................................................................................ 4

          CASH MANAGEMENT PROCEDURES ........................................................................ 4

          PROCUREMENT PRACTICES ....................................................................................... 5

          WHISTLEBLOWER PROCESS ....................................................................................... 5

          INVENTORY RECORDS ................................................................................................. 6

          RECOMMENDATION ..................................................................................................... 6

          HERITAGE HEALTH AND HOUSING, INC., COMMENTS ....................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 6

OTHER MATTER: MANAGEMENT OFFICIAL SEVERANCE PACKAGE .................. 7

APPENDIX

          HERITAGE HEALTH AND HOUSING, INC., COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Heritage Health and Housing, Inc.

Heritage Health and Housing, Inc. (Heritage), is a non-profit agency that provides housing,
counseling, supportive, and healthcare services to residents located in the New York City area.

Heritage is funded primarily by patient service revenues and Federal and State grants. During
calendar year 2009, HRSA provided Recovery Act funds to Heritage totaling $555,017. Of that
amount, $400,010 was allocated for the renovation of medical and dental suites, the purchase of
new medical and dental equipment, and an electronic medical records system. The remaining
$155,007 was allocated for increasing the number of patients served by hiring additional staff.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, “Cost Principles for Non-Profit Organizations” (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial



                                                1
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. Moreover, grantees must establish procedures related
to whistleblower protection. Grantees are also required to maintain inventory control systems
and take periodic inventory of grant related equipment. Finally, grantees are also required to
submit quarterly status reports to the Federal Government regarding their use of Recovery Act
funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Heritage’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

Scope

We conducted a limited review of Heritage’s financial viability, financial management system,
and related policies and procedures. Therefore, we did not perform an overall assessment of
Heritage’s internal control structure. Rather, we performed limited tests and other auditing
procedures on Heritage’s financial management system to assess its ability to administer
federally funded projects.

We performed our fieldwork at Heritage’s administrative office in New York, New York, during
March 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Heritage’s HRSA grant application packages and supporting documentation;

   •    interviewed Heritage personnel to gain an understanding of its accounting system and
        internal controls;




                                                  2
    •   reviewed Heritage’s financial management procedures related to accounting
        documentation, preparation of financial reports, procurement, drawdown of Federal
        funds, inventory, and other financial matters;

    •   reviewed Heritage’s quarterly status reports submitted to the Federal Government;

    •   reviewed Heritage’s independent audit reports and related financial statements for Fiscal
        Years (FYs) 2006 through 2008;

    •   performed ratio analyses of Heritage’s financial statements; and

    •   reviewed Heritage’s administrative procedures related to personnel, conflict resolution,
        whistleblower protection, and other non-financial matters.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

Based on our assessment, Heritage’s financial viability may be adversely impacted by its
financial condition in FYs 2006 through 2008. During this period Heritage’s expenditures
exceeded operating revenues and current liabilities exceeded current assets. Moreover, while
Heritage is generally capable of managing and accounting for Federal funds and operating a
health center in accordance with Federal regulations, we noted issues related to Heritage’s
accounting system and to certain procedures; including cash management, procurement, and
whistleblower protection. Finally, Heritage does not maintain inventory records or have written
procedures for periodically performing a physical inventory.

FINANCIAL VIABILITY

Heritage is a longstanding and viable organization. However, our assessment of Heritage’s
financial position for FYs 2006 through 2008 identified two weaknesses:

    •   Heritage’s expenditures exceeded its operating revenues by $223,467 in FY 2006,
        $329,769 in FY 2007, and $642,943 in FY 2008. 1

    •   Heritage’s current liabilities exceeded its current assets by $1,324,637 in FY 2006,
        $554,021 in FY 2007, and $1,439,525 in FY 2008.




1
 Heritage’s operating revenues totaled $13,753,695 in FY 2006, $14,350,398 in FY 2007, and $15,089,297 in
FY 2008.


                                                      3
For an organization to be considered fiscally sound, revenues should exceed expenditures and
current assets should exceed current liabilities. Therefore, the weaknesses we identified could
adversely impact Heritage’s financial viability and affect its ability to pay off its short-term debt
obligations. 2

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21, grantees must maintain financial systems that provide for accurate
and complete reporting of grant-related financial data. Pursuant to 45 CFR § 74.22(b)(2), cash
advances to grant recipients shall be limited to the minimum amounts needed. Pursuant to
2 CFR, pt. 230, App. A, § A(4)(a)(1) (OMB Circular A-122, Att: A, § A.4.a.1), grant expenses
must be incurred specifically for the grant award.

Heritage does not use its accounting software to properly segregate the organization’s operating
expenses between Federal and non-Federal programs. As a result, Heritage does not properly
use immediate expenses as the basis for withdrawing grant funds from the HHS payment
management system. Specifically, Heritage withdraws an equal amount of grant funds every
quarter until the funds are exhausted; however, it records the amount drawn down as incurred
Federal expenditures on its quarterly status reports submitted to the Federal Government. 3 As a
result, Federal funds may be used to pay for non-Federal expenses throughout each quarter and,
consequently, quarterly status reports submitted to the Federal Government may not provide for
accurate and complete reporting of grant-related financial data.

CASH MANAGEMENT PROCEDURES

Pursuant to 45 CFR § 74.22(b)(2), cash advances to grant recipients shall be timed to be in
accordance with the actual, immediate cash requirements of the recipient organization in
carrying out the purpose of the approved program or project.

Heritage overdrew $19,918 of Recovery Act funds during 2009. Specifically, Heritage agreed to
pay two general contractors a total of $232,000 to renovate its medical and dental suites. During
August and September of 2009, Heritage drew down the entire $232,000 from the HHS payment
management system; however, it only paid the contractors a total of $212,082. As of August 6,
2010 Heritage was holding the remaining $19,918 for one of the contractors until renovations are
completed. In addition, Heritage reported $232,000, rather than the $212,082 paid to the
contractors, as expenditures on the September 30, 2009 quarterly status reports submitted to the
Federal Government.




2
 We note that pursuant to 45 CFR § 74.14, awarding agencies may impose additional requirements, as needed, if an
applicant or recipient has a history of poor performance or is not financially stable.
3
  Heritage submits a Standard Form 269, Financial Status Report and a Health Center Quarterly Report to HRSA via
a secure website as well as a Recovery Act report via a Federal government Web site for reporting Recovery Act
funding data.


                                                       4
PROCUREMENT PRACTICES

Pursuant to 45 CFR § 74.44, grantees are required to establish written procurement procedures,
which require solicitations for goods and services to provide a clear and accurate description of
the technical requirements for the material, product or service to be procured, requirements
which the bidder/offeror must fulfill and all other factors to be used in evaluating bids or
proposals, and the specific features of “brand name or equal” descriptions that bidders are
required to meet when such items are included in the solicitation. In addition, grantees must
document that every procurement action is supported by some form of cost or price analysis.
Pursuant to 45 CFR § 74.42, grantees must establish written standards of conduct to avoid
conflicts of interest when procuring goods and services with Federal funds.

Heritage established written procurement procedures that require competitive bidding for
purchases of materials, supplies, equipment, or services. However, Heritage did not always
follow these policies. Specifically, Heritage procured dental equipment and services from two
general contractors to renovate its medical and dental suites–totaling $232,000–without
documenting that a cost or price analysis was performed. Moreover, Heritage did not solicit
competitive bids for these purchases. As a result, Heritage may not have purchased these items
in the most economical, practical, and competitive manner. Finally, Heritage’s written
procurement procedures do not contain standards of conduct which address conflicts of interest
when procuring goods or services with Federal funds.

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against employees of an organization
awarded Recovery Act funds for disclosing to appropriate authorities any credible evidence of
(1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross
waste of covered funds; (3) a substantial and specific danger to public health or safety related to
the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant awarded or
issued relating to covered funds. Pursuant to section 1553(e) of the Recovery Act, any employer
receiving covered funds shall post notice of the rights and remedies provided for the protection
of employees under this section.

Heritage established a whistleblower policy detailing how employees can communicate instances
of wrongdoing to Heritage officials or any public body. However, the policy does not protect
whistleblowers against all forms of retaliation for reporting instances of wrongdoing to a public
body. Specifically, the policy states that employees that make reports directly to a public body
without first advising a supervisor of suspected instances of wrongdoing may not be protected.




                                                 5
INVENTORY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees must maintain inventory records that contain the
following information for equipment acquired with Federal funds: a description of the
equipment, an identification number, its location, acquisition and disposition data, condition of
property, and whether title vests with the grantee or the Federal Government. In addition,
grantees must perform a physical inventory and reconcile the results of its inventory with
existing records at least once every two years.

Heritage does not maintain inventory records or perform a physical inventory of equipment at
least once every two years. Further, Heritage does not have written policies and procedures for
maintaining inventory records or performing a physical inventory in accordance with Federal
regulations. As of FY ending June 30, 2009, Heritage’s equipment was valued at $579,676,
according to its 2009 audited financial statements.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Heritage’s ability to account for and manage Federal funds
and to operate a community health center in accordance with Federal regulations.

HERITAGE HEALTH AND HOUSING, INC., COMMENTS

In written comments on our draft report, Heritage generally concurred with our findings and
described its completed and ongoing actions to address the deficiencies we identified. Regarding
our assessment of its financial viability, Heritage stated that its excess expenditures over
revenues for FYs 2006 through 2008 were covered by other revenues, resulting in positive cash
flows in each of those years; that its financial position improved significantly in FY 2009; and
that it expects further improvements in FY 2010 and beyond. However, Heritage acknowledged
that its current ratio for FY 2009 was .75, “still below the desirable ratio of 1:1.” In addition,
Heritage stated its accounting system software is designed to use cost centers to properly capture
funding sources and programs when tracking expenditures and revenues. Heritage’s comments
are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Heritage’s comments, we maintain our findings regarding its financial viability
and accounting system. For an organization to be considered fiscally sound, operating revenues
should consistently meet or exceed operating expenses. Further, for FYs 2006 through 2008,
Heritage’s audited financial statements indicated that it operated with negative cash flows. We
also maintain that, during our fieldwork, Heritage did not use its accounting software to
segregate the organization’s operating expenses between Federal and non-Federal programs.




                                                 6
        OTHER MATTER: MANAGEMENT OFFICIAL SEVERANCE PACKAGE

Pursuant to 2 CFR pt. 230, to be allowable under a Federal award, costs must be reasonable in
nature. In determining the reasonableness of a given cost, consideration is given to whether the
cost is generally recognized as ordinary and necessary for the operation of the organization and
whether the organization acted with prudence.

During our audit period, Heritage’s Board of Directors and a senior management official reached
a mutual agreement to end the senior management official’s employment with Heritage because
of irreconcilable differences. The president of Heritage’s Board of Directors and the official
subsequently signed a severance agreement; however, there was no employment contract
between Heritage and the official requiring such an agreement. As part of its severance,
Heritage provided the official a $64,904 ($20,685 Federal share 4) package consisting of three
months salary during the official’s inactive status ($31,250), five days of accrued leave earned
during his inactive status ($2,404), and a three-month lump sum payment ($31,250). Heritage
also provided the official with health insurance and the use of a company vehicle and desktop
computer during his inactive status; and a laptop computer and BlackBerry device to keep after
his employment officially ended. Because of Heritage’s accounting and inventory system
weaknesses, Heritage officials could not determine whether Federal or non-Federal funds were
used to purchase the former official’s vehicle, computers, or BlackBerry. Normal severance
payments are generally allowable for Federal reimbursement. However, because Heritage was
not bound by an employment contract, the Board could have elected not to provide the official
with a severance package. HRSA should consider whether the Board’s decision to provide the
official with a severance package was prudent given the fact that Heritage was experiencing
financial difficulties, as outlined in this report.

In its written comments on our draft report, Heritage stated that the composition of the Board has
changed substantially since its decision to provide the official with a severance package.
Heritage also indicated that it will share the matter with the current Board for policy
consideration.




4
  To calculate the impact of the severance payment on Federal funds, we examined Heritage’s 2009 financial
statements and calculated the percentage of Federal revenues ($5,642,400) to revenues received from all sources
($17,706,725). We then applied this percentage (31.87 percent) to the total severance payment ($64,904) to
determine the Federal share.


                                                         7
APPENDIX
                                                                                                                     Page 1 of7


      APPENDIX: HERITAGE HEALTH AND HOUSING, INC., COMMENTS




              Heritage Health and Honsing, Inc.
                                        ...over 40 years of se n'ice to tfie community

BOARD OF DIRECTORS

 David M. Rose nthal , Ph .D
  Chairperson of the Board
 DOl'i s O. Woo t Cll , CSW
  ,ricc CflOrr                                  th
                                    November 5 2010
 Yvonne Fos t Cl Kilpatric k.
 MS.Ed.
  Secretary                         James P. Edert 

 Ca mille Man g h nm , CPA          Department of Health and Human Services 

  TI"('asllrC'r                     Office of Aud it Services 

                                    Regional Inspector General fo r Audit Services 

S<l llndl'fI Ale:\<llldel'
Moniel! BI"HggS                     Region II 

LIllia n Brow ll . EdD .            Jacob Javits Federal Building 

John Cardwell. Ph.D.                26 Federal Plaza-Room 3900 

Robm Chapelle                       New York, NY 10278 

Fred V. Goode
Enrl WasblllgLon
                                    Dear Mr. Edert:

Cofle'en Boullicklewis              Enclosed you will find the written comments to the " Results of Limited Scope
Chip( l;',\"('(,III;r'(' Officerl
E.\'e(:rl/, ;I:l' Dlfe(:/.(JI'      Review at Heritage Health and Housing, Inc." If you have any questions, please
                                    feel f ree to co ntact me at 212-866-2600 ext 1116.
Hc nl.agc Health CAre Cell/cl'
1727 Amsterdam Ave, 4th fl .
New York, r-"ry 10031



                                    ~
'reI (21 2)862·0054
Fa x (212)862-55J6

Alva l'o Sim lllo ns 
              Col lee n Bonnicklewis 

Db'ectol' 

                                    Chief Executive Officer/ED 

Main Officf' 

416 West 127(h Sh'pe! 

New Yor k. NY 10027 
               Ref: A-Q2-1O-Q2009
Tel (2 12) 866-2600 

 Pax (2 12) 864·5044




                                                         www.heritagenyc.org
                                                                                            Page 2 of7




HERITAGE HEALTH AND HOUSING, INC, RESPONSES TO:
DHHS-RESULTS OF LIMITED SCOPE REVIEW AT HERITAGE HEALTH AND
HOUSING, INC,

FINANCIAL VIABILITY
Heritage is a longstanding and viable organization. However, our assessment of
Heritage's financial position for FYs 2006 through 2008 identified two weaknesses:

    • 	 Heritage's expenditures exceeded its operating revenues by $223,467 in FY
         2006, $329,769 in FY 2007, $642,943 in FY 2008 .
     • 	 Heritage's current liabilities exceeded its current assets by $1 ,324,637 in FY
         2006, $554,021 in FY 2007, and $1,439,525 in FY 2008 .
For an organization to be considered fiscally sound revenues should exceed
expenditures and current assets should exceed current liabilities. Therefore, the
weaknesses we identified could adversely impact Heritage's financial viability and affect
rts ability to payoff its short-term debt obligations.


Response: Non-concurrence: Heritage Health and Housing, Inc. (Heritage) has a
well established presence as a health and humans services organization in the
West and Central Harlem community for approximately forty-years. The
organization is known to be dedicated to the delivery of culturally competent care
that meets and exceeds the ever changing needs of the community. To this end,
Heritage has taken several critical steps during to rectify the findings from the
site visit as well as to ensure future compliance with all of its operational
functions both programmatic and financial.

 Excess expenditures over revenues for FYs 2006-2008 were covered by the other
revenue such as development and construction fee income in the amounts of
$264,550, $463,979, $1,971 ,940 respectively resulting in positive cash flow in each
of those years.

With the hiring of a qualified Finance team since FY 2009, our financial position
has improved significantly. Heritage Health Center operating revenue exceeded
its expenses by $351,182, a sign of improvement from previous years. The
overall agency current ratio improved from 0.66 in FY2008 to 0.75 in FY2009,
although it is still below the desirable ratio of 1:1 to this end, the organization
senior leadership recently completed a preliminary action plan to increase
revenue and reduce expenditures. We expect further improvement will be noted
in FY 2010 and in future years despite economic realities.




Ref: A-02-10-02009
                                                                                           Page 3 of7




ACCOUNTING SYSTEM

Heritage does not use its accounting software to properly segregate the organization's
operating expenses between Federal and non-Federal programs. As a result, Heritage
does not properly use immediate expenses as the basis for withdrawing grant funds
from the HHS payment management system. Specifically, Heritage withdraws an equal
amount of grant funds every quarter until the funds are exhausted; however, it records
the amount drawn down as incurred Federal expenditures on its quarterly status reports
submitted to the Federal Government. As a result, Federal funds may be used to pay
for non-Federal expenses throughout each quarter and consequently, quarterly status
reports submitted to the Federal Government may not provide for accurate and
complete reporting of grant-related financial data.

Response: Non-eoncurrence: We currently use Fund EZ which has been
designed to use cost centers to properly capture funding sources and programs
when tracking expenditures and revenues. The use of the cost centers curbs the
inappropriate use of funds.


CASH MANAGEMENT PROCEDURES

Heritage over drew $19,918 of Recovery Act funds during 2009. Specifically, Heritage
agreed to pay two general contractors a total of $232,000 to renovate its medical and
dental suites. During August and September of 2009, Heritage drew down the entire
$232,000 from the HHS payment management system; however, it only paid the
contractors a total of $212,082. As of August 6, 2010 Heritage was holding the
remaining $19,918 for one of the contractors until renovations are completed . In
addition , Heritage reported $232,000, rather than the $212,082 paid to the contractors,
as expenditures on the September 30. 2009 quarterly status reports submitted to the
Federal Government.

Response: Concurrence: Heritage has a policy in place that prohibits the
drawdown of funds in advance. This is a one-time event that occurred as a result
of a billing question. Heritage stood ready to pay the contractor based on the
invoice received. A subsequent walkthrough called the invoice into question and
Heritage held the money pending resolution and cost verification. The dispute
has taken longer to resolve than anticipated. Heritage is still holding this money
pending resolution with the contractor.




Ref: A-02-02009
                                                                                              Page 4 of7




PROCUREMENT PRACTICES

Heritage established written procurement procedures that require competitive bidding
for purchases of materials, supplies, equipment, or services. However, Heritage did not
always follow these policies. Specifically, Heritage procured dental equipment and
services from two general contractors to renovate its medical and dental suites-totaling
$232,OOO-without documenting that a cost or price analysis was performed. Moreover,
Heritage did not solicit competitive bids for these purchases. As a result, Heritage may
not have purchased these items in the most economical, practical, and competitive
manner. Finally, Heritage's written procurement procedures do not contain standards of
conduct which address conflicts of interest when procuring goods or services with
Federal funds.

Response: Concurrence: The current procurement policy was established in FY
2010, Heritage has been following its procurement procedure policy since that
time. Staff members of Heritage recall that several contractors bid on the work
for contractor services and purchases for Dental equipment were the
responsibility of the contractor. These contractors are no longer employed by
Heritage. The procurement policy has been revised to include the following
language: "No purchasing of goods can be made from businesses owned by the
Heritage Health and Housing Inc. employees or members of the Board of
Directors." Attachment A


WHISTLEBLOWER PROCESS

Heritage established a whistleblower policy detailing how employees can communicate
instances of wrongdoing to Heritage officials or any public body. However, the policy
does not protect whistleblowers against all forms of retaliation for reporting instances of
wrongdoing to a public body. Specifically, the policy states that employees that make
reports directly to a public body without first advising a supervisor of suspected
instances of wrongdoing may not be protected .

Response: Concurrence: The Personnel Policy and Procedure Manual that
includes the Whistleblower Policy section has been reviewed by several
government agencies, attorneys and the Board of Directors of Heritage Health
and Housing. It was most recently revised in September 2009. The Chief
Executive Officer will recommend to the Board of Directors strike from the policy
the specific language that states "employees that make reports directly to a
public body without first advising a supervisor of suspected instances of
wrongdoing may not be protected."




Ref: A-02-10-02009
                                                                                               Page 5 of7




INVENTORY RECORDS

Heritage does not maintain inventory records or perform a physical inventory of
equipment at least once every two years. Further, Heritage does not have written
policies and procedures for maintain inventory records or performing a physical
inventory in accordance with Federal regulations. As of FY ending June 30, 2009,
Heritage's equipment was valued at $579,676, according to ns 2009 audited financial
statements.

Response: Concurrence: Heritage's fixed asset policy will be revised to include
language on inventory records and performing physical inventory. It will be
submitted to the board for approval. Attachment B.

OTHER MATTER: MANAGEMENT OFFICIAL SEVERANCE PACKAGE

 During our audit period, Heritage's Board of Directors and a senior management official
reached a mutual agreement to end the senior management official's employment with
Heritage because of irreconcilable differences. The president of Heritage's Board of
 Directors and the official subsequently signed a severance agreement; however, there
was no employment contract between Heritage and the official requiring such an
agreement. As part of its severance, Heritage provided the official a $64 ,904 ($20,685
Federal share) package consisting of three month salary during the official's inactive
status ($31 ,250) , five days of accrued leave earned during his inactive status ($2,404),
and a three-month lump sum payment ($31 ,250). Heritage also provided the official
with health insurance and the use of a company vehicle and desktop computer during
his inactive status; and a laptop computer and BlackBerry device to keep after his
employment officially ended . Because of Hernage's accounting and inventory system
weakness, Heritage officials could not determine whether Federal or non-Federal funds
were used to purchase the former official's vehicle, computers, or BlackBerry. Normal
severance payments are generally allowable for Federal reimbursement. However,
because Heritage was not bound by an employment contract, the Board could have
elected not to provide the official with a severance package. HRSA should consider
whether the Board 's decision to provide the official with a severance package was
prudent given the fact that Heritage was experiencing financial difficulties, as outlined in
this report.

Response: The severance package decision was made by the Board whose
membership has changed substantially since the decision was made on the
severance package. The federal share of this severance cannot be verified. It is
most likely that the severance was paid from development fee proceeds. This
finding will be shared with the current Board of Directors and recorded in the
minutes for policy consideration.




Ref: A-02-10-0;!009
                                                                                      Page 6 of7




Attachment A:

Heritage Health and Housing, Inc.
Purchasing Procedures


Each Department is authorized to obtain quotes for purchase of materials ,
supplies, equipment, or services. It is the goal of Heritage Health and Housing to
be competitive in its procurement activities. Departments shall solicit 3 quotes,
and select the lowest cost, acceptable quality, quotation that meets the
requirements.

Upon selecting the winning quote, Departments shall prepare the purchase
requisition memo to obtain approvals . Approvals for the expense must be
approved by the department head and then by the executive director.

After the request has been approved , the department/program may initiate a
purchase.

Departments shall retain the quotes in their file, and attach a copy of the winning
quote to the invoice.

No purchasing of goods can be made from businesses owned by the Heritage
Health and Housing Inc. employees or members of the Board of Directors.

Exceptions:

1. Emergency Repairs

2. Blanket Orders : A blanket order is a purchase order that is established with a
vendor to permit a Department to make repetitive small purchases over a given
time period , usually up to one (1) year, and up to a maxir,num dollar limit. The
blanket order is an efficient method for User Departments to save time , improve
lead time, and reduce paperwork .

Purchasing shall review blanket orders each year for appropriate action.
                                                                                                              Page 7 of7




Attachment B: 


Addendum to Fixed Asset Policy 


Maintenance of Property Records: 


Heritage maintains a ledger which lists all the property on the balance sheet by date purchased, 

description of asset, useful life and cost of asset. The ledger w ill also show the cu rre nt years 

depreciation charge and total accumu lated depreciation as we ll as net book va lue of asset. 


Furniture and equipment will be labeled with an identifying code, letter or number t hat will be noted in 

the fixed asset ledger. 


It will be noted on the asset ledger whic h items purchased have reversio nary rights and with which 

source of funds that the items were purchased. 


A physical inventory will be con ducted on a period ic basis on all fixed assets. 


The Controller is responsible for proper inventory control. 

